FDIC Office of Inspector General Press Release: Rio Rancho Man Sentenced for Federal Bank Fraud and Money Laundering Conviction
News Release
United States Department of Justice
District of New Mexico
FOR IMMEDIATE RELEASE
December 12, 2013
Rio Rancho Man Sentenced for Federal Bank Fraud and Money Laundering Conviction
Derek Barnhill was Convicted of Participating in Bank Fraud Scheme
with Albuquerque Real Estate Developer Vincent J. Garcia
ALBUQUERQUE â Derek Barnhill, 49, of Rio Rancho, N.M., was sentenced yesterday afternoon to three months in federal prison followed by three years of supervised release, which is to include nine months of home confinement, for his bank fraud and money laundering conviction.  Barnhill also was ordered to pay $560,129.39 in restitution.  The restitution is to be paid jointly with co-defendant Vincent J. Garcia.
In June 2010, Barnhill, Vincent Garcia, 61, an Albuquerque real estate developer, and David Garcia, 37, of Albuquerque, were charged in a 19-count superseding indictment with bank fraud and money laundering offenses in connection with three real estate development projects, including the Anaszai Downtown LLC (Anasazi Building).
Barnhill pled guilty in Dec. 2010, to Count 3, a bank fraud offense, and Count 10, a money laundering offense, and admitted collaborating with Vincent Garcia in a bank fraud and money laundering scheme.  In Aug. 2011, Vincent Garcia entered a guilty plea to Count 3 of the superseding indictment, and admitted committing bank fraud in the amount of $365,677.00, and acknowledged that the gross loss amount to the victims of his fraudulent activity was $842,237.44.  Neither Barnhill nor Vincent Garcia implicated David Garcia in the criminal conduct charged in the superseding indictment and the charges against him subsequently were dismissed.
According to court filings, Vincent Garcia executed a plan to obtain funding from the Columbian Bank & Trust Co. (Bank) by having Barnhill submit a construction loan drawn-down request containing a material misrepresentation to the Bank.  The scheme began on Feb. 12, 2007, when Garcia told Barnhill that he needed $360,000.00 for a âgood faith paymentâ towards the purchase of a casino.  Garcia asked Barnhill to use an old bid for sheet rock for the Anasazi Building to get the money.  Barnhill altered the sheet rock bid to support a fictitious draw-down request for $365,677.00, and submitted the request based solely on the false invoice to the Bank.  After the Bank disbursed the money, Barnhill transferred the funds to an Anasazi account at New Mexico Bank and Trust.  The next day, Garcia and Barnhill went to New Mexico Bank and Trust and withdrew $360,000.00 of the proceeds and the money at Compass Bank in an account in the name of Albuquerque Downtown Partners.  Thereafter, Garcia flew to Washington State with a Compass Bank check for $360,000.00 to make a payment on the casino.
Vincent Garcia was sentenced in April 2013, to 27-months in federal prison followed by five years of supervised release.  He also was ordered to pay $722,543.76 in restitution.  Garcia is serving his prison sentence.
This case was investigated by IRS Criminal Investigation, the FDIC-OIG and the Albuquerque office of the FBI, and was prosecuted by Assistant U.S. Attorney Jonathon M. Gerson.
# # #
13-394